               Key Areas of Noncompliance Among Small
              Business and Self-Employed Taxpayers Could
              Be Addressed Through More Effective Use of
                     Correspondence Examinations

                                  November 2003

                       Reference Number: 2004-30-005




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     November 5, 2003



       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Assistant Inspector General for Audit (Small Business and
                                     Corporate Programs)

       SUBJECT:                      Final Audit Report - Key Areas of Noncompliance Among Small
                                     Business and Self-Employed Taxpayers Could Be Addressed
                                     Through More Effective Use of Correspondence Examinations
                                     (Audit # 200230054)


       This report presents the results of our review of the steps the Internal Revenue Service
       (IRS) has taken to ensure that the process used to select inventory for its Small
       Business/Self-Employed (SB/SE) Division Campus1 Correspondence Examination
       Program addressed key areas of SB/SE Division2 noncompliance.
       Correspondence examinations are conducted through the mail, with the IRS typically
       asking taxpayers for more support regarding one or two simple issues on United States
       Individual Income Tax Returns (Form 1040). Correspondence examinations accounted
       for 73 percent (540,902) of the 743,417 individual income tax returns examined by the
       IRS in Fiscal Year (FY) 2001.
       As the IRS reorganized to the business unit concept, the Correspondence Examination
       Program likewise underwent organizational changes. The SB/SE Division Compliance
       Services function handles the SB/SE Division compliance activities not requiring
       face-to-face interaction with taxpayers, including correspondence examinations


       1
         The campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
       correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.
       2
         SB/SE Division customers include 45 million taxpayers filing personal, corporate, employment, excise, estate, and
       gift tax returns paying $915 billion in taxes annually. Approximately 33 million of these customers are fully or
       partially self-employed individuals, and 7 million are small business entities having assets of $10 million or less.
                                                        2


conducted at the IRS’ Brookhaven, New York; Cincinnati, Ohio; Memphis, Tennessee;
Ogden, Utah; and Philadelphia, Pennsylvania, Campuses. The SB/SE Division
Compliance Policy Office of Centralized Workload Selection and Delivery develops the
compliance work plan and selects the inventory for the Program.
In FY 2002, SB/SE Division executives announced that resources were being realigned
to focus on the biggest areas of risk to the tax system, referred to as key areas of
noncompliance. The SB/SE Division workload was to be associated with strategic
noncompliance priorities: abusive tax schemes and promoter investigations; misuse of
devices such as offshore accounts to hide or improperly reduce income; abusive
corporate tax avoidance transactions; high-risk, high-income individuals; Unreported
Income Discriminant Index Formula;3 and the National Research Program.4
In summary, we found that correspondence examinations did not always address
strategic noncompliance priorities and that the Correspondence Examination Program
could be used more effectively to reduce the tax gap and increase coverage and
voluntary compliance. In addition, the IRS does not always use the most cost-effective
method to examine tax returns, and the current Examination Workload Selection
Process results in inequitable treatment of taxpayers.
In FY 2003, Earned Income Tax Credit (EITC) cases made up 33 percent of the SB/SE
Division Campus Correspondence Examination Program inventory.5 While the IRS
cannot ignore the risks presented by EITC claims, the workload selected does not seem
to be balanced against the compliance risks associated with other SB/SE Division
taxpayers. Program inventory included many examinations of “personal” issues on
individual income tax returns (e.g., pension account distributions, alimony, contributions,
and the Child Care Credit). In effect, the SB/SE Division Correspondence Examination
Program was largely covering types of tax issues also covered by the Wage and
Investment Division.
The SB/SE Division Correspondence Examination Program could be used more
effectively to reduce the tax gap and increase coverage and voluntary compliance in
areas of egregious tax law abuse. In 1998, SB/SE Division taxpayers were responsible
for $141 billion (68 percent) of the $207 billion tax gap. Sole Proprietors, who file a
Form 1040 Profit or Loss From Business (Schedule C), accounted for 94 percent of the
SB/SE Division tax gap. However, we found that Schedule C examination issues were
largely ignored when inventory was selected for the Correspondence Examination
Program.
The IRS selects inventory and allocates resources based on past practices and
perceptions of what examination issues can best be handled by the various examination
techniques, rather than on activity-based costing models. In fact, IRS performance

3
  The Unreported Income Discriminant Index Formula is a new tool developed by the IRS that rates the probability
of income being omitted from a tax return.
4
  The National Research Program replaced the Taxpayer Compliance Measurement Program and is designed to
measure compliance and help identify compliance issues.
5
  EITC casework is mandated work with appropriated funding to combat EITC abuse.
                                                         3


measures do not include costs. Because the correspondence examination technique
lends itself to automation, the Correspondence Examination Program is an efficient,
cost-effective program that maximizes net revenue. Correspondence examinations are
a cost-effective way to increase the reporting of income by fostering the voluntary
compliance of those contacted and, indirectly, the compliance of those not contacted.
The IRS has stated that the current Examination Workload Selection Process does not
adequately identify cases with the greatest yield potential. As a result, excessive
resources are dedicated to less egregious noncompliant taxpayers rather than to the
biggest areas of risk to the tax system. This damages the IRS’ commitment to
promoting the highest degree of voluntary compliance through a fair and equitable
system for all taxpayers. Achievement of this goal is further endangered when the
function performing the majority of examinations does not always examine returns and
schedules associated with the key areas of SB/SE Division noncompliance. While
SB/SE Division management plans to introduce some abusive tax scheme cases and
increase the High Income Non-Filer and Frivolous Filer cases in the correspondence
examination inventory for FY 2004, there does not appear to be an aggressive plan to
rebalance the inventory selected for the various examination methods to ensure that
correspondence examinations can address more key areas of noncompliance.
Accordingly, we recommended that the IRS restore the strength of the Compliance
function and ensure fair and balanced treatment for all taxpayers by expanding the tax
issues that can be selected for correspondence examination to ensure that more of the
inventory addresses strategic noncompliance priorities. We also recommended that the
IRS initiate any necessary training programs, and select the most cost-effective
examination techniques based on performance measures reflecting cost and yield data.
Management’s Response: SB/SE Division management agreed that the Campus
Correspondence Examination Program should work more cases dealing with strategic
priorities and plans to expand the tax issues and types of SB/SE Division returns
selected for the Correspondence Examination Program inventory after a period of
adequate testing. In addition, management agreed to initiate necessary training
programs to ensure that Tax Examiners have the skills to examine additional types of
SB/SE Division tax issues. However, SB/SE Division management stated that the IRS
Restructuring and Reform Act of 1998 (RRA 98)6 prevented them from using cost and
yield information to measure program performance. SB/SE Division management also
disagreed with our assessment of their use of the most cost-effective examination
technique and their fair and equitable treatment of taxpayers. Management’s complete
response to the draft report is included as Appendix IV.
Office of Audit Comment: We disagree with SB/SE Division management’s opinion that
the RRA 98 prevents them from using cost and yield information to measure program
performance. Regulations permit the use of tax enforcement records for purposes such
as forecasting, financial planning, resources management, and the formulation of case

6
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                           4


selection criteria. We also do not agree with SB/SE Division management’s
assessment regarding their use of the most cost-effective examination techniques. We
are concerned that the current limitations placed on the types of cases selected for the
Correspondence Examination Program may prevent the application of such an efficient
examination technique to higher-priority SB/SE Division tax issues. Finally, we believe
that by not using the Correspondence Examination Program to address tax issues that
fall solely under the domain of the SB/SE Division, the IRS is not maximizing its
commitment to a fair and equitable system for all taxpayers.
While we still believe that all of our recommendations are worthwhile, we do not intend
to elevate our disagreement concerning these matters to the Department of the
Treasury for resolution.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me (202) 622-6510 if you have questions or
Philip Shropshire, Director (Corporate and Customer Service), at (215) 516-2341.
   Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
   Could Be Addressed Through More Effective Use of Correspondence Examinations




                                                  Table of Contents


Background ............................................................................................... Page 1
Correspondence Examinations Did Not Always Address Strategic
Noncompliance Priorities ........................................................................... Page 2
         Recommendation 1: ...................................................................... Page 6

The Correspondence Examination Program Could Be Used More
Effectively to Reduce the Tax Gap and Increase Coverage
and Voluntary Compliance ........................................................................ Page 6
         Recommendations 2 and 3: .......................................................... Page 13

The Most Cost-Effective Method Is Not Always Used to
Examine Tax Returns ................................................................................ Page 14
         Recommendation 4: ...................................................................... Page 18
         Recommendation 5: ...................................................................... Page 19

The Current Examination Workload Selection Process Results in
Inequitable Treatment of Taxpayers .......................................................... Page 20
         Recommendation 6:…………………………………………………..Page 21

Appendix I – Detailed Objective, Scope, and Methodology ...................... Page 23
Appendix II – Major Contributors to This Report ....................................... Page 25
Appendix III – Report Distribution List ...................................................... Page 26
Appendix IV – Management’s Response to the Draft Report .................... Page 27
   Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
   Could Be Addressed Through More Effective Use of Correspondence Examinations

                               Since 1996, Tax Examiners located at the Internal Revenue
Background
                               Service (IRS) campuses1 have conducted the vast majority
                               of examinations of United States (U.S.) Individual Income
                               Tax Returns (Form 1040) using the correspondence
                               examination technique. As the name implies,
                               correspondence examinations are conducted through the
                               mail, with the IRS typically asking taxpayers for more
                               support regarding one or two simple issues on individual
                               income tax returns (e.g., Earned Income Tax Credit (EITC),2
                               Self-Employment Tax, and alimony payments).
                               During Fiscal Years (FY) 1992 to 2002, the annual number
                               of correspondence examinations conducted by the IRS
                               varied considerably, from just over 200,000 to about
                               1.2 million.3 Correspondence examinations accounted for
                               540,902 (73 percent) of the 743,417 individual income tax
                               returns examined by the IRS in FY 2001.
                               As the IRS reorganized to the business unit concept, the
                               Correspondence Examination Program likewise underwent
                               organizational changes. The Small Business/Self-Employed
                               (SB/SE) Division Compliance Services function is now
                               responsible for handling SB/SE Division compliance
                               activities not requiring face-to-face interaction with
                               taxpayers,4 which includes correspondence examinations
                               conducted by Tax Examiners at the IRS’
                               Brookhaven, New York; Cincinnati, Ohio;


                               1
                                 The campuses are the data processing arm of the IRS. The campuses
                               process paper and electronic submissions, correct errors, and forward
                               data to the computing centers for analysis and posting to taxpayer
                               accounts.
                               2
                                 In 1997, many EITC returns previously examined in the
                               Correspondence Examination Program were moved to the Math-Error
                               Program.
                               3
                                 The fewest number of correspondence examinations (232,000) were
                               closed in 1993. Between 1994 and 1995, the number of correspondence
                               examinations tripled, from approximately 353,000 to about 1.1 million.
                               The increase between 1994 and 1995 was due to increased emphasis on
                               examining returns claiming the EITC.
                               4
                                 SB/SE Division customers include 45 million taxpayers filing
                               personal, corporate, employment, excise, estate, and gift tax returns
                               paying $915 billion in taxes annually. Approximately 33 million of
                               these customers are fully or partially self-employed individuals, and
                               7 million are small business entities having assets of $10 million or less.
                                                                                                  Page 1
      Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
      Could Be Addressed Through More Effective Use of Correspondence Examinations

                                   Memphis, Tennessee; Ogden, Utah; and
                                   Philadelphia, Pennsylvania, Campuses. The SB/SE
                                   Division Compliance Policy Office of Centralized
                                   Workload Selection and Delivery is charged with
                                   developing the compliance work plan and selecting
                                   inventory for the Program.
                                   This audit was conducted at the IRS’ Brookhaven
                                   Compliance Site and included analyses of the
                                   Correspondence Examination Program inventory5 in the five
                                   SB/SE Division campuses from October 2002 through
                                   April 2003. We interviewed IRS management in the
                                   SB/SE Division Headquarters, located in
                                   New Carrollton, Maryland, and at all SB/SE Division
                                   campuses, and reviewed IRS studies, reports, and records to
                                   obtain information about the Correspondence Examination
                                   Program.
                                   The audit was conducted in accordance with Government
                                   Auditing Standards. Detailed information on our audit
                                   objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   Based on the results of Compliance Risk Assessments6
Correspondence Examinations
                                   begun in FY 2000, the IRS began to identify and refocus its
Did Not Always Address Strategic
                                   resources on the biggest areas of risk to the U.S. tax system
Noncompliance Priorities
                                   in a comprehensive strategy. Toward the end of FY 2002,
                                   the IRS began realigning its resources to focus on key areas
                                   of noncompliance with U.S. tax law.
                                   On July 30, 2002, former IRS Commissioner Charles
                                   Rossotti and SB/SE Division executives presented an
                                   overview of the new compliance strategies to the IRS
                                   Oversight Board and explained that FY 2003 would be a
                                   year of transition. As existing examination inventories were


                                   5
                                     The Table SC 35 (ARP 1640) is an IRS monthly cumulative report that
                                   tracks the overall productivity of the Correspondence Examination
                                   Program. The report provides data concerning the inventory worked in
                                   the Program, including dollars assessed, yield per return, staff hours per
                                   return, and no change rates.
                                   6
                                     Compliance Risk Assessments are part of the strategic assessment
                                   phase of the strategic planning budgeting process conducted by the IRS.
                                                                                                     Page 2
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            closed, the new workload selected for SB/SE Division
                            employees was to be associated with the new strategies.
                            This new direction focused on seven priority areas:
                                •    Abusive tax schemes and promoter investigations.
                                •    Misuse of devices such as offshore accounts to hide
                                     or improperly reduce income.
                                •    Abusive corporate tax avoidance transactions.
                                •    High-risk, high-income individuals.
                                •    Offshore credit card abuses.
                                •    Unreported Income Discriminant Index Formula
                                     (UI DIF).7
                                •    The National Research Program (NRP).8
                            During this audit, we analyzed the SB/SE Division
                            Examination Plan and the Correspondence Examination
                            Program inventory at the SB/SE Division and Wage and
                            Investment (W&I) Division campuses9 for FY 2003. We
                            found that approximately 59 percent of the combined SB/SE
                            Division and W&I Division Correspondence Examination
                            Program workload consisted of EITC cases.10 EITC cases
                            made up approximately 33 percent (94,981 cases) of the
                            SB/SE Division Correspondence Examination Program
                            inventory to be completed in FY 2003 (288,489 cases).
                            While the FY 2003 Examination Plan called for a decrease
                            of 59 percent from the number of EITC cases the SB/SE
                            Division campuses worked in FY 2002, EITC cases were


                            7
                              The UI DIF is a new tool developed by the IRS for identifying returns
                            with a high probability of unreported income. This new UI DIF score
                            rates the probability of income being omitted from a tax return.
                            8
                              The NRP replaced the Taxpayer Compliance Measurement Program
                            and is designed to measure compliance and help identify compliance
                            issues. Data gathered from the NRP will enable the IRS to update
                            existing screening techniques used to select tax returns for examination.
                            9
                              The W&I Division campuses are located in Andover, Massachusetts;
                            Atlanta, Georgia; Austin, Texas; Fresno, California; and
                            Kansas City, Missouri.
                            10
                               EITC casework is mandated work with appropriated funding to
                            combat EITC abuse.
                                                                                              Page 3
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            still a significant part of their workload. In fact, the
                            Philadelphia Campus almost doubled the number of
                            correspondence examination resources allocated to work
                            EITC cases in FY 2003, as compared to the prior year.
                            Tax Examiners at one SB/SE Division campus were even
                            working W&I Division correspondence examination
                            inventory.11 IRS management indicated this occurred
                            because of research projects or because W&I Division
                            campuses could not handle their inventories.
                            Although there were some projects that potentially qualify
                            as addressing key areas of noncompliance, such as
                            25,000 High Income Non-Filer (HINF) cases in the
                            Memphis Campus correspondence examination inventory or
                            17,000 Frivolous Correspondence cases in the Ogden
                            Campus correspondence examination inventory, we found
                            that:
                                 •   Correspondence examinations conducted by Tax
                                     Examiners at SB/SE Division campuses did not
                                     always address the strategic noncompliance
                                     priorities outlined by SB/SE Division executives.
                                 •   The SB/SE Division Correspondence Examination
                                     Program inventory included many examinations of
                                     “personal” issues on taxpayers’ individual income
                                     tax returns, such as the Child Care Credit, 10 Percent
                                     Penalty,12 contributions, alimony payments,
                                     dependents, and duplicate Social Security Numbers.




                            11
                               The Cincinnati Campus is working some W&I Division Child Care
                            Credit, Contributions, and 10 Percent Penalty cases.
                            12
                               This type of case involves a penalty for an early distribution of funds
                            from a pension account.
                                                                                               Page 4
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                                 •   Many of the tax issues examined by correspondence
                                     at the SB/SE Division campuses were the same types
                                     of issues as those examined by correspondence at the
                                     W&I Division campuses.13
                            In recent years, the IRS has come under growing criticism
                            for its focus on low-income taxpayers, especially due to the
                            number of EITC examinations. While the IRS certainly
                            cannot ignore the risks presented by SB/SE Division
                            taxpayers claiming the EITC, the workload selected for
                            correspondence examinations, which is the largest
                            component of the Examination Coverage Rate,14 does not
                            seem to be balanced against the compliance risks associated
                            with other SB/SE Division taxpayers.
                            Currently, SB/SE Division management is working with the
                            IRS Concept of Operations Project (CONOPS) researchers
                            to help develop a noncompliance case selection model. In
                            addition, they plan to introduce some abusive tax scheme
                            cases and increase the HINF and Frivolous Filer cases in the
                            correspondence examination inventory for FY 2004.
                            However, there does not seem to be an aggressive plan to
                            rebalance the inventory selected for the various examination
                            methods and ensure that correspondence examinations can
                            address more key areas of noncompliance. The inventory
                            selected for the SB/SE Division Correspondence
                            Examination Program must change if the IRS plans to target
                            limited resources at the most serious transgressions and
                            threats to the tax system.




                            13
                               The SB/SE Division taxpayer segment includes Form 1040 filers with
                            a Profit or Loss From Business (Schedule C), Supplemental Income or
                            Loss (Schedule E), Profit or Loss From Farming (Schedule F), or
                            Employee Business Expenses (Form 2106) attached to their returns. The
                            W&I Division serves taxpayers who file a Form 1040 with no
                            accompanying Schedules C, E, or F; no Forms 2106; and no
                            international activity.
                            14
                               The IRS has traditionally calculated the Examination Coverage Rate
                            by dividing the number of returns examined in the current fiscal year by
                            the number of returns filed in the preceding calendar year.
                                                                                            Page 5
      Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
      Could Be Addressed Through More Effective Use of Correspondence Examinations

                                  Recommendation

                                  1. The Director, Compliance, SB/SE Division, should
                                     ensure that more of the inventory selected to be worked
                                     in the SB/SE Division Correspondence Examination
                                     Program addresses strategic noncompliance priorities.
                                  Management’s Response: SB/SE Division management
                                  agreed that the Correspondence Examination Program
                                  should work more cases dealing with strategic priorities.
                                  For FY 2004, they plan to increase the number of HINF and
                                  Frivolous Filer cases worked in the Program, and add more
                                  cases dealing with strategic priorities when identified.
                                  While management stated that they considered most of the
                                  strategic priority work too complex to be handled through
                                  correspondence examinations, they also indicated that their
                                  intention is to shift more complex SB/SE Division work to
                                  the Correspondence Examination Program over time.
                                  Office of Audit Comment: In FY 2004, approximately
                                  one-third of the inventory worked in the SB/SE Division
                                  Correspondence Examination Program will involve EITC
                                  cases. This casework is mandated and accomplished with
                                  appropriated funding. This circumstance makes the
                                  selection of discretionary inventory that addresses the key
                                  areas of noncompliance even more crucial. While
                                  increasing the number of HINF and Frivolous Filer cases in
                                  the inventory for FY 2004 is certainly a step in the right
                                  direction, it is up to SB/SE Division management to ensure
                                  that more of the Correspondence Examination Program
                                  inventory addresses key areas of noncompliance.
                                  The Federal income tax system operates largely on a
The Correspondence
                                  self-assessment basis. That is, the Federal Government
Examination Program Could Be
                                  expects taxpayers to determine their own tax obligations and
Used More Effectively to Reduce
                                  to pay voluntarily whatever is due. By placing the onus on
the Tax Gap and Increase
                                  the taxpayers, the Federal Government avoids the costly
Coverage and Voluntary
                                  alternative of determining each individual’s tax liability and
Compliance
                                  doing whatever it must to collect it. However, one cost of




                                                                                         Page 6
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            relying so heavily on the voluntary compliance of taxpayers
                            is that not all tax is voluntarily paid.15
                            The difference between what taxpayers should pay and what
                            they actually do pay voluntarily and timely is referred to as
                            the tax gap. The tax gap was estimated at $207 billion in
                            1998. The IRS’ FY 2003-2004 Compliance Risk Assessment
                            revealed that those areas of noncompliance associated with
                            the tax gap – nonfiling, nonpayment, and underreporting –
                            continue to widen.
                            Direct effect of the Examination Coverage Rate
                            IRS enforcement programs identify and collect some of the
                            tax gap directly from the taxpayers they contact. This is a
                            direct effect of the Examination Coverage Rate, which is the
                            primary enforcement tool thought to influence voluntary
                            compliance.16
                            The Examination Coverage Rates for IRS correspondence
                            and field examinations of individual income tax returns and
                            nonindividual business returns have declined dramatically
                            since FY 1996.
                                 •   In FY 2001, the Examination Coverage Rate for
                                     individual income tax returns17 examined through
                                     correspondence and field examinations was
                                     .58 percent, a 65 percent decline from the 1996 rate
                                     of 1.67 percent.




                            15
                               The Determinants of Individual Income Tax Compliance: Estimating
                            the Impacts of Tax Policy, Enforcement, and IRS Responsiveness, IRS
                            Publication 1916 (Rev. 11-96).
                            16
                               The IRS uses several computer-matching and automated
                            error-checking routines that result in adjustments to tax liabilities but are
                            not included in the traditional Examination Coverage Rates.
                            17
                               In FY 2001, 127,097,400 individual income tax returns were filed and
                            743,417 were examined. In FY 1996, 116,059,700 individual income
                            tax returns were filed and 1,941,546 were examined.
                                                                                                Page 7
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                                 •   In FY 2002, the Examination Coverage Rate for
                                     nonindividual business returns18 examined through
                                     field examinations was approximately .2 percent, a
                                     60 percent decline from the 1996 rate of .5 percent.19
                            This decrease in compliance activity was due to several
                            factors, including budgetary constraints, the desire to
                            provide increased customer service, and the need to
                            implement and provide additional taxpayer protections and
                            rights mandated by the IRS Restructuring and Reform Act
                            of 1998 (RRA 98).20
                            Voluntary compliance seems to have fallen concurrent with
                            the decline in the Examination Coverage Rates. Since it is
                            estimated that only a fraction of the tax gap will eventually
                            be collected through enforcement and other late payments, it
                            is crucial for the IRS to effectively use its limited resources
                            to improve voluntary compliance.
                            Indirect effect of the Examination Coverage Rate
                            According to a study published in 1996,21 IRS examinations
                            also produce an indirect revenue effect, referred to as the
                            “ripple effect,” by inducing some level of voluntary
                            compliance in the population at large. The study’s premise
                            is that taxpayers perceive increased examinations by the IRS
                            as an increase in their chances of being examined, and they
                            improve their voluntary compliance as a result.



                            18
                               Nonindividual business returns include the following return types:
                            Corporations < $10 million, Corporations $10 million and over,
                            U.S. Corporation Income Tax Return for an S Corporation
                            (Form 1120S) < $10 million, 1120S $10 million and over, Partnerships,
                            Fiduciaries, Employment, Excise, Estate, Gift, Exempt Organizations,
                            and Employee Plans.
                            19
                               In FY 2002, 41,502,453 nonindividual business returns were filed and
                            82,221 were examined. In FY 1996, 38,524,037 nonindividual business
                            returns were filed and 194,000 were examined.
                            20
                               Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                            sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 22 U.S.C., 23 U.S.C.,
                            26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                            21
                               The Determinants of Individual Income Tax Compliance: Estimating
                            the Impacts of Tax Policy, Enforcement, and IRS Responsiveness, IRS
                            Publication 1916 (Rev. 11-96).
                                                                                           Page 8
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            An IRS study released in November 200222 stated that the
                            indirect effect of increasing the Examination Coverage Rate
                            would be to increase the deterrence factor (i.e., changing the
                            public’s perceptions of the certainty, severity, and celerity
                            (swiftness) of getting caught in noncompliance). It could
                            also involve education or shaping attitudes (e.g., changing
                            the public’s perceptions of the extent to which the law is
                            applied and enforced fairly).
                            This study claimed that IRS examinations have a strong,
                            positive impact on reporting compliance and estimated that
                            the average indirect effect of the examinations started in
                            1991 was about 11.7 times as large as the average
                            adjustment directly proposed by examinations closed that
                            year. Moreover, if the Examination Coverage Rate had
                            been 1 percentage point higher in 1991, the general
                            population would have voluntarily reported an additional
                            $56 billion of additional tax.23
                            Declining Examination Coverage Rates cause concern
                            During annual oversight hearings on the IRS, the Congress
                            often raises questions about the declining Examination
                            Coverage Rates and the possible effects on voluntary
                            compliance. Taxpayers’ willingness to voluntarily comply
                            with tax laws depends in part on their confidence that
                            friends, neighbors, and business competitors are paying their
                            fair share of taxes. The IRS programs to ensure compliance
                            and to collect delinquent taxes are viewed by many as
                            critical for maintaining the public’s confidence in our tax
                            system. Many experts feel that this declining trend in




                            22
                               The Impact of the IRS on Voluntary Tax Compliance: Preliminary
                            Empirical Results, Alan H. Plumley (November 2002, IRS Office of
                            Research).
                            23
                               Management Advisory Report: The Internal Revenue Service’s
                            Response to the Falling Level of Income Tax Examinations and Its
                            Potential Impact on Voluntary Compliance (Reference Number
                            2002-30-092, dated June 2002). This final report discussed the “ripple
                            effect” of examination coverage with respect to field examinations and
                            referred to the same IRS studies.
                                                                                            Page 9
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            Examination Coverage Rates has the potential to undermine
                            taxpayers’ motivation to fulfill their tax obligations.24
                            SB/SE Division correspondence examinations could
                            reduce the tax gap through increased coverage and
                            voluntary compliance
                            SB/SE Division taxpayers are responsible for the majority
                            of the tax gap. Approximately $141 billion (68 percent) of
                            the $207 billion tax gap in 1998 was attributed to SB/SE
                            Division taxpayers. Sole Proprietors, who file a Form 1040
                            with a Profit or Loss From Business (Schedule C), fall
                            under the domain of the SB/SE Division and accounted for
                            $132.5 billion (94 percent) of this $141 billion. Corporate
                            taxpayers were responsible for $8.3 billion (6 percent).25
                            Because SB/SE Division taxpayers, and specifically Sole
                            Proprietors, are responsible for such a large portion of the
                            tax gap, it is imperative that the SB/SE Division compliance
                            programs use their limited resources effectively to increase
                            their direct examination coverage of this taxpayer segment.
                            This would also serve to increase the indirect or “ripple
                            effect,” thereby increasing voluntary compliance and
                            ultimately reducing the tax gap.
                            Inventory selection criteria limit the Program’s potential
                            The Internal Revenue Manual requires that tax returns
                            identified for examination be classified to ensure that all
                            questionable issues on returns are examined and to
                            determine whether the issues can be addressed through
                            correspondence examinations26 or need to go to IRS field




                            24
                               Compliance and Collection-Challenges for IRS in Reversing Trends
                            and Implementing New Initiatives (GAO-03-732T, dated May 2003).
                            25
                               Statistics obtained from the IRS’ FY 2003-2004 Compliance Risk
                            Assessment.
                            26
                               The IRS uses both computer technology and manual review to select
                            returns for examination. This selection process results in a
                            determination of whether a return has examination potential. If the
                            return does, the process helps identify specific tax issues to be examined
                            and the examination technique to be used. This is called the Screening
                            and Classification process.
                                                                                             Page 10
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            staff.27 The IRS generally has one chance to examine a
                            return. If returns including complex schedules are not
                            classified for potential examination issues, tax
                            noncompliance is more likely to go undetected.
                            Currently, the IRS has established standards and
                            requirements for selecting, conducting, and reviewing the
                            quality of correspondence examinations. The IRS uses
                            computer programs to screen tax returns filed each year by
                            individual taxpayers for examination potential. The IRS
                            campuses also have their own computer programs to
                            identify returns with issues to be examined through
                            correspondence.
                            According to IRS criteria, campus correspondence
                            examinations are to exclude complicated tax issues, such as
                            those on business and investment schedules.28 Tax returns
                            assigned to the Correspondence Examination Program are to
                            involve only one or two simple tax issues that can be
                            examined by Tax Examiners who are not trained to examine
                            complex issues on business and investment schedules.
                            However, we found that because of these restrictions, the
                            most egregious cases of tax law abuse (e.g., the Sole
                            Proprietor Taxpayer Segment29) were largely ignored when
                            inventory was selected for SB/SE Division campus
                            correspondence examinations. Even when individual
                            income tax returns with Schedules C attached were selected
                            for examination in the Correspondence Examination
                            Program, the issues examined rarely had anything to do with
                            the Schedules C per se, but rather involved such things as
                            the EITC or dependents claimed on the taxpayers’
                            individual income tax returns.




                            27
                               The Examination function field staff includes Revenue Agents and
                            Tax Auditors/Tax Compliance Officers. Their examinations generally
                            involve face-to-face meetings with taxpayers and/or their
                            representatives.
                            28
                               IRS Audits-Weaknesses in Selecting and Conducting Correspondence
                            Audits (GAO/GGD-99-48, dated March 1999).
                            29
                               Identified in the IRS’ FY 2003-2004 Compliance Risk Assessment as
                            the largest contributor to the tax gap.
                                                                                        Page 11
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            A U.S. General Accounting Office (GAO) report30 issued in
                            1999 concluded that an estimated 22 percent of the
                            correspondence examinations closed in 1996 had
                            Schedules C attached to the taxpayers’ individual income
                            tax returns that were not examined. Approximately
                            21 percent of the closed correspondence examinations had
                            Schedules D, E, and/or F31 attached that likewise were not
                            examined. The report criticized the IRS for not referring
                            returns with these attached schedules for field examination.
                            The GAO stated that because the IRS missed this window of
                            opportunity, potential tax noncompliance on the attached
                            schedules went undetected.
                            We agree with the GAO that potential tax noncompliance
                            went undetected when attached schedules were not
                            examined. However, we believe that the IRS should use the
                            SB/SE Division Correspondence Examination Program as
                            part of a more focused approach to address the areas of key
                            noncompliance.
                            As stated earlier in this report, in FY 2001, 73 percent of all
                            individual income tax returns were examined by
                            correspondence. If the IRS does not use the SB/SE Division
                            Correspondence Examination Program more effectively to
                            address the key areas of noncompliance, close the tax gap,
                            and increase coverage and voluntary compliance, it will be
                            difficult to reverse trends that have already undermined the
                            fairness of the tax system and the attitude of compliant
                            taxpayers toward their obligation to pay taxes. Furthermore,
                            growth in the economy will cause the tax gap to increase
                            every year if actions are not taken to reverse the trend.




                            30
                               IRS Audits-Weaknesses in Selecting and Conducting Correspondence
                            Audits (GAO/GGD-99-48, dated March 1999).
                            31
                               A Schedule D is the form used to report capital gains and losses,
                            Schedule E is the form used to report supplemental income and loss, and
                            Schedule F is the form used to report profit or loss from farming.
                                                                                          Page 12
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                             Recommendations

                            The Director, Compliance, SB/SE Division, should:
                            2. Expand the tax issues and types of SB/SE Division
                            returns that can be included in inventory selected for the
                            Correspondence Examination Program after a period of
                            limited testing.
                            Management’s Response: SB/SE Division management
                            plans to expand the tax issues and types of SB/SE Division
                            returns selected for the Correspondence Examination
                            Program inventory after a period of adequate testing.
                            However, they stated this report did not make it clear that
                            the SB/SE Division Correspondence Examination Program
                            can influence only a part of the growth in the economic tax
                            gap and that the SB/SE Division Correspondence
                            Examination Program was not responsible for examining
                            “73 percent of all individual income tax returns audited by
                            correspondence.”
                            Office of Audit Comment: We agree that the SB/SE
                            Division Correspondence Examination Program can
                            influence only a part of the growth in the economic tax gap.
                            As stated on page 3 of this report, the SB/SE Division
                            Correspondence Examination Program was scheduled to
                            complete 288,489 cases in FY 2003. This represented
                            approximately one-half of all the campus correspondence
                            examinations scheduled to be completed by the IRS in FY
                            2003. The other one-half was scheduled to be completed by
                            the W&I Division Campus Correspondence Examination
                            Program, which was not the subject of this report.
                            3. Initiate training programs to ensure that Correspondence
                            Examination Program Tax Examiners have the necessary
                            skills to examine additional types of tax issues and
                            schedules filed by SB/SE Division taxpayers.
                            Management’s Response: SB/SE Division management
                            plans to hold continual training programs to ensure that
                            Correspondence Examination Program Tax Examiners have
                            the necessary skills to examine additional types of tax issues
                            and schedules filed by SB/SE Division taxpayers. They
                            have also centralized certain types of returns/issues in

                                                                                  Page 13
     Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
     Could Be Addressed Through More Effective Use of Correspondence Examinations

                                 certain campuses to maximize training resources and
                                 coverage levels. They intend to obtain subject matter
                                 experts for Continuing Professional Education presentations
                                 and develop new courses for Tax Examiners as well as
                                 additional training for those campuses responsible for the
                                 CONOPS research returns.
                                 The IRS is responsible for collecting the proper amount of
The Most Cost-Effective Method
                                 taxes at the least cost to the Federal Government and
Is Not Always Used to Examine
                                 taxpayers. To fulfill this responsibility, the IRS examines
Tax Returns
                                 all types of tax returns to determine whether taxpayers have
                                 reported their correct tax liabilities. The IRS spends over
                                 $1 billion annually on its examination programs, including
                                 staff costs. Based on its examinations, the IRS annually
                                 recommends that taxpayers pay additional taxes totaling
                                 tens of billions of dollars.
                                 The range of size and complexity across tax returns affects
                                 the amount of time and resources the IRS uses to examine
                                 returns and resolve disputes over the assessment of
                                 recommended taxes. Examinations of large corporations
                                 may take years, while for small, less-complex returns, the
                                 time is shorter, usually under a year.
                                 To deal with this varying complexity, the IRS has three
                                 types of examiners that conduct examinations using
                                 different methods.
                                    1. Revenue Agents from IRS field offices visit
                                       individuals, corporations, and other types of
                                       taxpayers to address the most-complex tax returns.
                                       They also work in teams to perform Coordinated
                                       Industry Case examinations of large corporations,
                                       and they fall in the highest pay grades.
                                    2. Tax Auditors/Tax Compliance Officers usually
                                       perform examinations by meeting with taxpayers at
                                       field offices and fall in the middle range with respect
                                       to their pay grades and the complexity of their
                                       examinations.
                                    3. Tax Examiners perform correspondence
                                       examinations of simple tax issues at IRS campuses
                                       and are in the lowest pay grade of the three types of
                                       examiners.
                                                                                      Page 14
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            The IRS uses a screening and classification process
                            previously outlined in this report to select returns for
                            examinations, help identify specific tax issues to be
                            examined, and choose which of the examination techniques
                            described above will be used to conduct the examination.
                            The IRS allocates its inventory and examination resources
                            based on preconceived perceptions of what the different
                            types of examiners “are capable of examining” or what
                            types of cases have traditionally been selected for their
                            inventory, rather than on activity-based costing models.
                            The Correspondence Examination Program is an
                            efficient, cost-effective, revenue-producing program
                            In 1994, the IRS Inspection Service issued a report on the
                            IRS Service Center32 Correspondence Examination
                            Program,33 which stated that the Correspondence
                            Examination Program was an efficient, cost-effective,
                            revenue-producing program. Based on that review, it was
                            concluded that Tax Examiners using the correspondence
                            examination technique had much higher dollar per hour
                            rates of return than Revenue Agents and Tax Auditors in the
                            field. Tax Examiners assessed an average of $2,130 per
                            hour, as compared to $713 per hour for individual return
                            examinations conducted by Revenue Agents and $485 for
                            Tax Auditors.
                            The report criticized the IRS for not capitalizing on the
                            potential of the Correspondence Examination Program to
                            increase revenues and the Examination Coverage Rate.
                            Despite the Correspondence Examination Program’s
                            favorable cost, collectibility, and dollar per hour assessment
                            statistics, the resources allocated to and the number of
                            returns selected for correspondence examinations were
                            declining.
                            At that time,34 the IRS assigned low priority to the
                            Correspondence Examination Program, and the Program’s
                            favorable statistics were not variables included in the

                            32
                               Service centers are now referred to as IRS campuses.
                            33
                               The IRS Correspondence Examination Program (Reference
                            Number 94057, dated June 3, 1994).
                            34
                               Period covered was 1988-1992.
                                                                                       Page 15
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            Examination Resource Allocation Methodology. The
                            Examination Cost Model used did not provide sufficient
                            cost/yield data to ensure the efficient allocation of resources.
                            One of the recommendations made in the 1994 report was
                            that the Correspondence Examination Program should be
                            used to examine Schedule C expense line items as well as
                            other nontraditional type examination issues, such as
                            Passive Losses and Fiduciary Income (Form 1041). The
                            report also advocated that Tax Examiners work more
                            nonfiler cases themselves, rather than perform nonfiler case
                            building for the field staff.
                            Additional research favors cost-effective examining
                            The IRS study, The Impact of the IRS on Voluntary
                            Compliance: Preliminary Empirical Results, previously
                            referred to in this report, stated that:
                                   The most cost-effective activity is the one that is
                                   most automated and therefore cheapest because that
                                   would have the highest marginal indirect revenue to
                                   cost ratio. Automated activities have the greatest
                                   indirect yield to cost; examinations are among the
                                   activities with the largest indirect effect relative to
                                   their cost. Some IRS activities that do not produce
                                   direct enforcement revenue seem to produce an
                                   indirect effect on voluntary compliance.
                            Basically, correspondence examinations are potent tools to
                            increase the reporting of income by fostering the voluntary
                            compliance of those contacted and indirectly fostering the
                            voluntary compliance of those not contacted.
                            Because the nature of the Correspondence Examination
                            Program lends itself to automation improvements, these
                            types of examinations help achieve the objective of
                            maximizing net revenue – total revenue net of costs.
                            Moreover, since most returns are examined by this method,
                            it follows that statistically the indirect effect of
                            correspondence examinations is significantly larger than the
                            direct revenue effect of the examinations. Just by the sheer
                            number of correspondence examinations conducted, there
                            would tend to be a bigger indirect effect on voluntary
                            compliance than by using other examination techniques.
                                                                                   Page 16
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            Reengineering efforts have increased the productivity of
                            the Correspondence Examination Program
                            Through the ongoing Examination reengineering efforts, the
                            IRS has made multiple automation improvements within the
                            correspondence examination process that further increased
                            the Program’s productivity and decreased operating costs.35
                            For example, in FY 2002, the number of returns projected to
                            be examined by correspondence examination was 575,216,
                            and that number was expected to increase by 32 percent for
                            FY 2003. While a small portion (4 percent) of this increase
                            is attributable to additional staffing devoted to
                            correspondence examinations, systemic improvements in
                            case creation and inventory delivery account for most of the
                            anticipated increases in productivity.
                            Other automation enhancements to the correspondence
                            examination process will allow Tax Examiners to focus
                            primarily on casework rather than spending time on clerical
                            work. While the number of cases opened will increase,
                            most will be processed automatically. Tax Examiners will
                            be able to focus their efforts toward taxpayer responses,
                            which truly require their expertise and attention.
                            IRS performance measures present an unbalanced
                            picture
                            The IRS has traditionally measured the overall results of
                            examinations by the amount of additional taxes
                            recommended and the time charged directly to examinations
                            by Examination function staff. These measures do not
                            employ other existing data that could more fully represent
                            the revenues and costs associated with examinations.



                            35
                              A major initiative was the incorporation of batch processing into all
                            correspondence examination cases. Batch processing is a
                            multifunctional software application that interfaces with the Report
                            Generation System used by the Tax Examiners. It allows for the
                            automatic processing of cases from beginning to closure, eliminating
                            Tax Examiner involvement with no-reply cases, including the automatic
                            creation and issuance of the Statutory Notices of Deficiency and the
                            closing of cases on the Audit Information Management System (the
                            Examination function’s automated inventory system) when Statutory
                            Notice of Deficiency Periods expire.
                                                                                          Page 17
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            In 1998, the GAO issued a report36 criticizing existing IRS
                            performance measures because:
                                 •   The measures did not report the dollar costs of the
                                     direct time charged to an examination or the indirect
                                     costs for the examination, settlement, and collection
                                     activities.
                                 •   The measures did not report how much of the
                                     recommended taxes were actually assessed and
                                     collected.
                            Measuring examination performance just by additional taxes
                            recommended and direct examination staff time presents an
                            unbalanced picture of the examination results. The GAO
                            recommended the IRS report examination revenues with
                            associated costs so that a fuller, more balanced picture is
                            available to enable IRS management to make better
                            decisions when allocating examination resources.
                            Furthermore, the GAO report stated the IRS needed
                            performance measures that also took into consideration the
                            indirect revenue effect of examinations (i.e., when
                            examinations induced both examined and nonexamined
                            taxpayers to be more voluntarily compliant and tax
                            collections increased indirectly).37

                            Recommendations

                            The Director, Compliance, SB/SE Division, should ensure
                            that:
                            4. Examinations of tax returns are performed using the most
                            cost-effective examination technique.
                            Management’s Response: SB/SE Division management
                            stated that while they agreed that returns needed to be


                            36
                               Tax Administration-IRS Measures Could Provide a More Balanced
                            Picture of Audit Results and Costs (GAO/GGD-98-128, dated
                            June 1998).
                            37
                               In response to the GAO’s recommendations, the IRS indicated that it
                            would annually report to the Congress the amounts of recommended
                            taxes that are collected and continue to work on developing an
                            activity-based costing model.
                                                                                          Page 18
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            examined using the most cost-effective examination
                            technique, they believe that they are accomplishing this
                            through the automation of certain discretionary program
                            inventory worked in the Correspondence Examination
                            Program (i.e., Alternative Minimum Tax, Self-Employment
                            Tax, and 10 Percent Penalty cases). They also stated that,
                            through the CONOPS research projects, the SB/SE Division
                            is actively exploring emerging noncompliance issues and
                            existing issues suitable for correspondence examinations.
                            Office of Audit Comment: We are concerned that the
                            current limitations placed on the types of cases selected for
                            the Correspondence Examination Program may prevent the
                            application of such an efficient examination technique to
                            higher-priority SB/SE Division tax issues. The three tax
                            issues that IRS management points to in their response – the
                            Alternative Minimum Tax, Self-Employment Tax, and
                            10 Percent Penalty – are not new tax issues for the
                            Correspondence Examination Program. Many of the
                            CONOPS research projects conducted in FY 2003
                            (e.g., charitable contributions and the Child Care Credit) did
                            not address key areas of SB/SE Division noncompliance.
                            Likewise, projects planned for FY 2004 (e.g., home office
                            expenses and gambling losses) will not identify new types
                            of inventory for the Correspondence Examination Program.
                            5. Examination Program Performance Measures reflect cost
                            and yield information for Revenue Agents, Tax Auditors/
                            Tax Compliance Officers, and Tax Examiners.
                            Management’s Response: SB/SE Division management
                            stated that they disagreed with this recommendation because
                            it would be a violation of the RRA 98 to use cost and yield
                            information to measure performance.
                            Office of Audit Comment: We are not suggesting that the
                            cost and yield information be used to evaluate employee
                            performance, but rather that the records of tax enforcement
                            results be used for purposes such as financial planning,
                            resources management, and the formulation of case
                            selection criteria. The regulations contained in Part 801 of
                            26 CFR. Ch. 1 (1999) implement the provisions of RRA 98
                            §§ 1201 and 1204. These regulations specifically state that
                            records of tax enforcement results may be used for purposes

                                                                                  Page 19
      Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
      Could Be Addressed Through More Effective Use of Correspondence Examinations

                                   such as forecasting, financial planning, resources
                                   management, and the formulation of case selection criteria.
                                   In fact, one of the examples contained in Part 801.6 (f)
                                   states that “a headquarters unit may use records of tax
                                   enforcement results to develop methodologies and
                                   algorithms for use in selecting tax returns to audit.”
                                   On March 1, 2002, the IRS issued its FY 2003-FY 2004
The Current Examination
                                   Small Business/Self-Employed Strategic Assessment Report.
Workload Selection Process
                                   This report stated that the Examination and Collection
Results in Inequitable Treatment
                                   Workload Identification38 Systems are antiquated and
of Taxpayers
                                   inefficient, and, as a result, the SB/SE Division does not
                                   have adequate workload identification systems and
                                   processes in place on which to base workload selection.
                                   The IRS stated that Examination workload selection does
                                   not adequately identify cases with the greatest yield
                                   potential. As a result, excessive resources are dedicated to
                                   less egregious, noncompliant taxpayers rather than the
                                   biggest areas of risk to the U.S. tax system. The current
                                   workload selection system damages the IRS’ commitment
                                   to a fair and equitable system for all taxpayers.
                                   The concept of coverage is to examine sufficient returns of
                                   all classes to assure all taxpayers of equitable consideration
                                   and to make the most efficient use of Examination staffing
                                   and other resources, with the objective of promoting the
                                   highest degree of voluntary compliance. Achievement of
                                   this objective is endangered when the function within the
                                   IRS that performs the majority of examinations does not
                                   always examine returns and schedules associated with the
                                   key areas of SB/SE Division noncompliance.
                                   While SB/SE management plans to introduce some abusive
                                   tax scheme cases and increase the HINF and Frivolous Filer
                                   cases in the correspondence examination inventory for
                                   FY 2004, there does not appear to be an aggressive plan to
                                   rebalance the inventory selected for the various examination
                                   methods to ensure that correspondence examinations can
                                   address more key areas of noncompliance.



                                   38
                                        Also referred to as inventory selection.
                                                                                          Page 20
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            The growth of the SB/SE Division taxpayer segment
                            (2.5 percent) is projected to exceed that for the W&I
                            Division (1 percent) from FYs 2001 to 2007. Most of this
                            growth is attributable to the growth in Schedule C filers
                            (2.3 percent) for that period. Numerous demographic
                            factors may be driving this growth, especially the
                            proliferation of home-based and nonemployer businesses
                            and the growth in immigrant entrepreneurs. Since multiple
                            risk assessments identified Schedule C filers as major
                            contributors to the tax gap, and new IRS projections point to
                            accelerated growth among these Sole Proprietors, this
                            creates an expectation of deepening compliance problems
                            and the need to rebalance compliance efforts.
                            During this period of refocusing compliance efforts and
                            Examination reengineering, the IRS needs to restore the
                            strength of the Compliance function. Continuing to allocate
                            resources to traditional methods of examination so that more
                            of the same kind of inventory can be examined, in the same
                            way as in the past, will not ensure that all taxpayers are
                            treated equally and assume their fair share of the tax burden.

                            Recommendation

                            6. The Director, Compliance, SB/SE Division, should
                            ensure that the workload selection process ensures fair and
                            balanced treatment for all classes of taxpayers.
                            Management’s Response: SB/SE Division management has
                            taken a number of steps to identify different types of
                            examination issues; these include establishing a team to
                            identify unique SB/SE Division inventory other than the
                            traditional inventory worked in prior years, coordinating
                            with the National Headquarters Office of Research on a
                            Risk-Based Selection CONOPS, coordinating with the
                            Criminal Investigation function to identify potential
                            inventory, and including more strategic priority work where
                            possible. Management agreed to test the feasibility of
                            introducing Schedule C expense examinations to the
                            Correspondence Examination Program inventory, and they
                            continue to work to circumvent the issue of non-transcribed
                            lines on Schedules C and Forms 2106.


                                                                                  Page 21
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                            However, IRS management stated that the fact that the
                            SB/SE and W&I Divisions cover the same tax issues does
                            not make their treatment of taxpayers unfair or inequitable.
                            Office of Audit Comment: We agree with the steps SB/SE
                            Division management has taken and plans to take to identify
                            and introduce different types of examination issues into the
                            Correspondence Examination Program inventory. However,
                            as stated in this report, the IRS declared in the FY 2003-
                            FY 2004 Small Business/Self-Employed Strategic
                            Assessment Report that:
                                   The Examination & Collection Workload
                                   Identification Systems are antiquated and inefficient
                                   and, as a result, the SB/SE Division does not have
                                   adequate workload identification systems and
                                   processes in place on which to base workload
                                   selection. The Examination workload selection
                                   does not adequately identify cases with the greatest
                                   yield potential. As a result, excessive resources are
                                   dedicated to less egregious, non-compliant
                                   taxpayers rather than the biggest areas of risk to the
                                   U.S. tax system. …The current workload selection
                                   system damages the IRS’ commitment to a fair and
                                   equitable system for all taxpayers.
                            We agree with this assessment. The fact that both the
                            SB/SE and W&I Divisions cover the same tax issues is not
                            what makes the system inequitable. It is the fact that certain
                            tax issues fall solely under the domain of the SB/SE
                            Division, and those issues are largely ignored when
                            inventory is selected for the SB/SE Correspondence
                            Examination Program.




                                                                                  Page 22
      Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
      Could Be Addressed Through More Effective Use of Correspondence Examinations

                                                                                                 Appendix I


                         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine what steps the Internal Revenue Service
(IRS) has taken to ensure that the process used to select inventory for its Small Business/
Self-Employed (SB/SE) Division Campus1 Correspondence Examination Program addressed key
areas of SB/SE Division noncompliance. We also evaluated the workload selection process to
determine how and what SB/SE Division cases were currently being selected for correspondence
examinations at SB/SE Division campuses. To achieve our objective, we performed the
following steps:
I.       Determined what role the IRS campus correspondence examinations have in helping to
         achieve the SB/SE Division’s new compliance strategy.
         A. Gathered and reviewed pertinent information related to the new SB/SE Division
            compliance strategy to determine what key areas of noncompliance the IRS hoped to
            address.
            1. Interviewed SB/SE Division headquarters staff to obtain information and
               documentation regarding the newly announced compliance strategy and the
               related initiatives intended to address key areas of noncompliance.
            2. Obtained information, reports, and documents regarding management’s plans for
               the correspondence examinations conducted at the SB/SE Division campuses and
               their role in the overall compliance strategy.
         B. Interviewed SB/SE Division management analysts to determine if they had any
            problems or concerns regarding the level and/or type of inventory selected for SB/SE
            Division correspondence examinations, the results of any pilot projects involving
            campus correspondence examinations, and any future plans for the Program.
II.      Determined the effects of the organizational redesign and reengineering efforts on the
         overall workload selection process for the SB/SE Division correspondence examination
         inventory and determined if IRS management had ensured that the inventory selected
         addressed the key areas of noncompliance identified in the new compliance strategy.
         A. Interviewed SB/SE Division Compliance Services and Compliance Policy
            management analysts to determine how the overall workload selection process



1
 The campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the computing centers for analysis and posting to taxpayer accounts.


                                                                                                       Page 23
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

      changed with regard to selection of inventory for the SB/SE Division Correspondence
      Examination Program as a result of the redesign and reengineering efforts.
   B. Reviewed the Internal Revenue Manual criteria and other documents regarding the
      selection of SB/SE Division inventory for correspondence examinations at IRS
      campuses.
   C. Obtained the Fiscal Year 2003 SB/SE Division Examination Plan and evaluated the
      number of cases and types of issues scheduled to be selected for correspondence
      examination and the level of resources allocated to accomplish this work. We
      compared this information to the inventory worked at the Wage and Investment
      Division campuses and the resources allocated for the same period of time.
   D. Using the information obtained from IRS inventory reports, determined the levels and
      types of correspondence examination inventory.




                                                                                   Page 24
   Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
   Could Be Addressed Through More Effective Use of Correspondence Examinations

                                                                      Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Director
Parker F. Pearson, Director
Robert K. Irish, Audit Manager
Margaret F. Filippelli, Senior Auditor
Carol Gerkens, Senior Auditor
Kathleen A. McFadden, Senior Auditor




                                                                           Page 25
   Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
   Could Be Addressed Through More Effective Use of Correspondence Examinations

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Staff Assistant, Small Business/Self-Employed Division SE:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls N:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE




                                                                                 Page 26
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations

                                                                  Appendix IV


               Management’s Response to the Draft Report




                                                                        Page 27
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations




                                                                        Page 28
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations




                                                                        Page 29
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations




                                                                        Page 30
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations




                                                                        Page 31
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations




                                                                        Page 32
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations




                                                                        Page 33
Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
Could Be Addressed Through More Effective Use of Correspondence Examinations




                                                                        Page 34
